August 20, 2020
Honorable Scott S. Harris
Clerk of the Court, Supreme Court of the United States
Re:

Tammy Horton v. Methodist University, Inc.
No. 20-5308
Opposition to Respondent's Motion for Extension of Time to Respond to
Petition for Certiorari

Dear Mr. Harris,
I, Tammy Horton, as the Petitioner, pro se, in the above referenced case, strongly object
to the respondent, Methodist University's ("Methodist"), Motion for Extension of Time to
Respond submitted August 19, 2020.
While Methodist's request may be timely pursuant to Rule 15.3, it fails to identify any
genuine, more less exceptional, need to warrant an extension of time to file a brief in opposition
to the Petition for Certiorari ("Petition"). Methodist speciously identifies their ability to
thoroughly respond to issues and arguments, "many of which appear not to have been raised
previously", as justification for their request, yet the single question raised in my Petition is the
foundation, not only of the initial Complaint filed in 2016, but each document thereafter. In
accordance with Rule 10, the Petition does not contain previously unstated legal arguments nor
references to legal cases or precedence for the first time. Thus, the reasons proffered by
Methodist to substantiate their request are meritless and consequently noncompliant with Rule
30.4, offering no compelling justification for approval of their request for extension of time to
file a brief in opposition to the Petition.
Furthermore, Methodist is represented by multiple attorneys with combined legal
experience greater than twenty years, numerous assistants, and a myriad of fina cialREFElyED
ega

AUG 2 5 2020
OFPICE.OF THE
CLERK
SUPREME COURT
U.S.

resources at their disposal, all of which are unavailable to me as the Petitioner, pro se, imparting
Methodist an even greater and considerable advantage. Methodist's request is nothing more
than a delay tactic which, contrary to Methodist's reckless conjecture, does prejudice a party in
this case, namely me, the Petitioner, pro se.
In the event of favorable review of Methodist's motion for an extension of time, I
respectfully "... request that the motion be submitted to a Justice or to the Court" for
supplementary review pursuant to Rule 30.4.
Thank you in your advance for your time and attention to this matter.

Respectfully submitted,

Petitioner - pro se

2

CERTIFICATE OF SERVICE
I, Tammy Horton, hereby declare that on this date, August 20, 2020, as required by
Supreme Court Rule 29, I have served the enclosed letter of objection upon the Respondent's
counsel of record as referenced below by depositing a properly addressed envelope containing
the above referenced document in the United States mail with first class postage prepaid in an
official depository under the exclusive care of the United States Postal Service for delivery
within 3 calendar days to the following:

Daniel M. Nunn
Christopher P. Raab
CAUDLE & SPEARS, P.A.
Attorneys at Law
121 West Trade Street
Suite 2600
Charlotte, North Carolina 28202-5399
I declare under penalty of perjury that the foregoing is true and correct.
This the 20th day of August 2020.

Jarnm, A,(94-0y‘,
Tammy Hort

3

etitioner pro se

